nm
|

C@OCKLE

L eg al Briefs E-Mail Address:

2311 Douglas Street
contact(@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214 /
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-787

PRESERVE RESPONSIBLE SHORELINE
MANAGEMENT, ALICE TAWRESEY, ROBERT DAY,
BAINBRIDGE SHORELINE HOMEOWNERS, DICK
HAUGAN, LINDA YOUNG, JOHN ROSLING,
BAINBRIDGE DEFENSE FUND, POINT MONROE
LAGOON HOME OWNERS ASSOCIATION, INC., and
KITSAP COUNTY ASSOCIATION OF REALTORS,
Petitioners,

Vv.

CITY OF BAINBRIDGE ISLAND, WASHINGTON
STATE DEPARTMENT OF ECOLOGY,
ENVIRONMENTAL LAND USE HEARING OFFICE,
and GROWTH MANAGEMENT HEARINGS
BOARD CENTRAL PUGET SOUND REGION,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
GOLDWATER INSTITUTE AND CATO INSTITUTE IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5982 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).

as needed.

Subscribed and sworn to before me this 8th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska z Chie
RENEE J. GOSS 9 °
My Comm. Exp. September 5, 2023 id

Notary Public Affiant 40453
